<html>
<title> - FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS APPROPRIATIONS FOR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
      FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS 
                        APPROPRIATIONS FOR 2001

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                             SECOND SESSION
                                ________
   SUBCOMMITTEE ON FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED 
                                PROGRAMS
                    SONNY CALLAHAN, Alabama, Chairman
 JOHN EDWARD PORTER, Illinois        NANCY PELOSI, California
 FRANK R. WOLF, Virginia             NITA M. LOWEY, New York
 RON PACKARD, California             JESSE L. JACKSON, Jr., Illinois
 JOE KNOLLENBERG, Michigan           CAROLYN C. KILPATRICK, Michigan
 JACK KINGSTON, Georgia              MARTIN OLAV SABO, Minnesota      
 JERRY LEWIS, California
 ROGER F. WICKER, Mississippi   

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
     Charles Flickner, John Shank, and Christopher J. Walker, Staff 
                              Assistants,
                     Lori Maes, Administrative Aide
                                ________
                                 PART 1B

                             (Pages 1-2829)

               OFFICIAL JUSTIFICATION OF BUDGET ESTIMATES

                  AGENCY FOR INTERNATIONAL DEVELOPMENT

                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 66-213                     WASHINGTON : 2000

                       COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman
 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois        NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky             MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico               JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 RON PACKARD, California             NANCY PELOSI, California
 SONNY CALLAHAN, Alabama             PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York            NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina   JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio               ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma     JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan           ED PASTOR, Arizona
 DAN MILLER, Florida                 CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia              MICHAEL P. FORBES, New York
 RODNEY P. FRELINGHUYSEN, New Jersey CHET EDWARDS, Texas
 ROGER F. WICKER, Mississippi        ROBERT E. ``BUD'' CRAMER, Jr., 
 GEORGE R. NETHERCUTT, Jr.,          Alabama
Washington                           MAURICE D. HINCHEY, New York
 RANDY ``DUKE'' CUNNINGHAM,          LUCILLE ROYBAL-ALLARD, California
California                           SAM FARR, California
 TODD TIAHRT, Kansas                 JESSE L. JACKSON, Jr., Illinois
 ZACH WAMP, Tennessee                CAROLYN C. KILPATRICK, Michigan
 TOM LATHAM, Iowa                    ALLEN BOYD, Florida               
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 VIRGIL H. GOODE, Jr., Virginia     
                                 
                 James W. Dyer, Clerk and Staff Director

                                  (ii)
                              Clerk's Note

    By direction of the Chairman, this official justification 
of Fiscal Year 2001 budget estimates of the Agency for 
International Development incorporates supplemental tabular and 
narrative details required by the Committee in addition to 
those provided in the printed version originally submitted by 
the Agency. This Committee document is the basis for 
reprogramming notifications submitted under section 515 of the 
Fiscal Year 2001 Foreign Assistance, Export Financing, and 
Related Programs Appropriations Act by or on behalf of the 
Agency for International Development.
    Under the long-standing notification requirements of 
section 515, the Agency is required to notify the 
Appropriations Committees 15 days in advance of obligation of 
funds from sundry accounts ``for activities, programs, 
projects, type of material assistance, countries, or other 
operations not justified or in excess of the amount justified 
to the Appropriations Committees. Section 515 does not apply to 
certain reprogramming for an activity, program, or project 
under chapter 1 of part I of the Foreign Assistance Act of 1961 
of less than 10 percent of the amount previously justified. 
Section 520 and several other provisions of the Act require 
separate notification for all projects and activities in 
certain countries, and specified activities elsewhere.
    The Committee expects and requires the Agency to implement 
the notification provisions of the Act without regard to its 
internal aggregation of programs, projects, activities, and 
countries within ``strategic objectives''. The Agency is 
directed to consult with the Committee in instances where it is 
uncertain of the application of appropriations law. 
Notification of reprogramming of funds from the ``Assistance 
for Eastern Europe and the Baltic States'' account shall 
continue to be notified on the same basis and understanding as 
in prior years.


[PAGES 1 - 2829--THE OFFICIAL COMMITTEE RECORD CONTAINS ADDITIONAL MATERIAL HERE]


            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
</pre></body></html>
